United States Department of Agriculture
Office of Inspector General




U.S. Department of Agriculture,
Recovery Act Impacts on Supplemental
Nutrition Assistance Program Phase II




                                          Audit Report 27703-0001-22
                                          June 2013
                                       Recovery Act Impacts on Supplemental Nutrition
                                                Assistance Program Phase II

                                                     Audit Report 27703-0001-22

What Were OIG’s
Objectives

To determine if FNS had
sufficient internal controls to
ensure that SNAP
administrative funds provided
by the Recovery Act were          OIG reviewed FNS’ internal controls for the
used in accordance with the
Recovery Act’s provisions,
                                  Recovery Act’s SNAP administrative
Office of Management and          funding to ensure that funds were spent for
Budget guidance, and FNS          allowable costs in accordance with
requirements for allowable
program costs.
                                  applicable requirements.

What OIG Reviewed                 What OIG Found

We randomly selected the          The American Recovery and Reinvestment Act of 2009 (Recovery
following States for review:      Act) provided additional funds for Supplemental Nutrition Assistance
California, Colorado, Nevada,     Program (SNAP) administrative costs. The Office of Inspector
New York, South Dakota, and       General (OIG) found that while Food and Nutrition Service (FNS)
Utah. These States received       made Recovery Act administrative funds available timely for States to
$52.2 million of the              use, FNS did not provide adequate accounting guidance, coordination,
$290.5 million in Recovery        and oversight to ensure States fully complied with transparency and
Act administrative funds for      accountability requirements.
SNAP.
                                  Four of six reviewed States did not separately account for Recovery
                                  Act funds for SNAP administrative expenditures. State officials
What OIG Recommends               indicated they either did not fully understand the accounting
                                  requirements or believed them too cumbersome. Although FNS did
FNS should recover                provide instruction on how to report Recovery Act funds used, it did
unallowable expenditures          not provide adequate guidance to assist States in how to maintain
totaling $470,272 from three      separate identity of Recovery Act expenditures. Also, FNS’ Financial
State agencies and one county.    Management Review process did not disclose that States were unable
                                  to comply with transparency requirements. Due to the lack of
                                  separate accounting, we were unable to gather sufficient evidence in
                                  accordance with generally accepted government auditing standards to
                                  conclude on the propriety of State uses of Recovery Act SNAP funds
                                  for administrative costs.
                                  We also found that two States used funds from one fiscal year to pay
                                  for expenses incurred in a different fiscal year, and a third State used
                                  funds after the obligation periods had expired. In addition, one county
                                  inappropriately used funds for payroll costs not associated with
                                  SNAP. As a result, we identified $470,272 in unallowable
                                  expenditures. FNS agreed with our recommendations.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250



DATE:          June 13, 2013

AUDIT
NUMBER:        27703-0001-22

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Director
               Office of Internal Controls, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Recovery Act Impacts on Supplemental Nutrition Assistance Program Phase II

This report presents the results of subject audit. Your written response to the official draft report,
dated May 10, 2013, is included in its entirety at the end of the report, with excerpts and the
Office of Inspector General’s position incorporated in the relevant Findings and
Recommendations sections of the report. Based on the written response, we were unable to
reach management decision on any of the report’s four recommendations. Management
decisions for the recommendations can be reached once you have provided the additional
information outlined in the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to OCFO.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................ 1
Section 1: Internal Controls Over SNAP Administrative Funds ..................... 3
   Finding 1: FNS Did Not Provide Effective Tools and Oversight to Ensure
   States Met Recovery Act Requirements .......................................................... 3
   Finding 2: Expenses Were Not Claimed in the Appropriate Fiscal Year..... 6
         Recommendation 1 .................................................................................... 7
         Recommendation 2 .................................................................................... 8
   Finding 3: Colorado Improperly Spent Recovery Act Funds ....................... 9
         Recommendation 3 ...................................................................................10
         Recommendation 4 ...................................................................................11
Scope and Methodology ......................................................................................12
Abbreviations ......................................................................................................14
Exhibit A: Summary of Monetary Results .......................................................15
Exhibit B: Sampling Methodology ....................................................................16
Agency’s Response ..............................................................................................19
Background and Objectives 

Background
The Food and Nutrition Service (FNS) administers the Supplemental Nutrition Assistance
Program (SNAP), formerly known as the Food Stamp Program.1 SNAP helps low-income
individuals and families by supplementing their income to purchase eligible foods at
participating retail stores. SNAP, which received $78.2 billion in Federal funds during fiscal
year (FY) 2012, is the Department of Agriculture’s largest domestic food and nutrition assistance
program, both in number of participants and dollars spent.

FNS manages SNAP through its national office in Alexandria, Virginia, and its seven regional
offices. At the State level, SNAP is administered by designated State agencies, such as a State's
Department of Human Services (DHS).2 Also, some States administer SNAP at the county level.
These States pass Federal SNAP administrative funds through to the counties for program
functions performed by county agencies. FNS promulgates program regulations and performs
financial and program reviews to ensure State agencies carry out SNAP in compliance with
program regulations. FNS funds the full cost of SNAP benefits and generally reimburses States
for 50 percent of their direct and indirect administrative costs.

On February 17, 2009, the President signed into law the American Recovery and Reinvestment
Act of 2009 (Recovery Act), which increased the amount of benefits SNAP households receive,
and supplied an additional $295 million in funding to cover SNAP administrative costs.3 The
Recovery Act administrative funding exempted States from the traditional 50-percent cost
matching requirement for the $295 million in additional funds. 4 Out of the $295 million,
$4.5 million was designated for management and oversight activities, as well as for monitoring
and evaluating the effects of the increased SNAP benefits. FNS made Recovery Act
administrative funds available timely so that States could begin to draw the funds on the first day
the funds were available for FYs 2009 and 2010.

The Recovery Act required an unprecedented level of transparency, oversight, and
accountability. Recovery Act funds were required to be reported separately from normal funding
provided through routine annual appropriations. In February and April of 2009, the Office of
Management and Budget (OMB) issued guidance requiring Federal agencies to establish
rigorous internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act.5 In response to OMB and the Recovery Act
guidance, FNS issued a series of question and answer memoranda to regions and States to
instruct them on how to handle the SNAP Recovery Act funds. The memoranda required

1
  The Food Stamp Act of 1964 established distribution of food stamps as a permanent Federal program. The Food,
Conservation, and Energy Act of 2008 changed the Food Stamp Program name to SNAP, partly to help alleviate the
social stigma associated with food stamps.
2
  SNAP programs exist in the 50 States, the District of Columbia, Guam, and the U.S. Virgin Islands.
3
  This Recovery Act funding was in addition to the $3.2 billion of regular administrative funds received in FY 2009
and the $3.5 billion received in FY 2010.
4
  $144.5 million was allocated to the States for use in FY 2009 and $146 million was allocated for FY 2010.
5
  OMB memoranda M-09-10, dated February 18, 2009, and M-09-15, dated April 3, 2009.

                                                                         AUDIT REPORT 27703-0001-22              1
grantees to account for the Recovery Act funds separately by reporting their Recovery Act
administrative expenses on a separate Financial Status Report (SF-269).

Because State agencies often use the same facilities and staff (such as caseworkers) to administer
many different programs, they use cost allocation plans, which are approved by the
U.S. Department of Health and Human Services (HHS), to allocate administrative expenses.6

State and local governments must have an annual audit of their Federal awards, including the
Recovery Act programs.7 Federal agencies use the single audit process as a key accountability tool
for monitoring Recovery Act awards.8 FNS regional offices also conduct financial management
reviews (FMR), which serve as the primary management control to ensure that State
administrative expense claims are accurate and allowable. 9 In June 2009, FNS updated its FMR
guide to include a mandatory review of the Recovery Act funds. This guide emphasized that the
Recovery Act required States and other entities receiving Recovery Act funds to maintain the
separate identity of funds at every stage of the grant cycle, including the receipt, custody,
obligation, expenditure, and reporting of the funds.

FNS increased its planned reviews to ensure that half of the State agencies in each FNS region
received FMRs by the end of FY 2010. The Recovery Act made additional funds available for
the second half of FY 2009 and all of FY 2010 for the increased FMRs. During this period, the
FMR effort emphasized reviewing the State’s custody, use, and reporting of funds made
available under the Recovery Act. Through these reviews, FNS expected to obtain reasonable
assurance that States met all the Recovery Act requirements.

Objectives
To determine if FNS had sufficient internal controls to ensure that SNAP administrative funds
provided by the Recovery Act were used in accordance with the Recovery Act’s provisions,
OMB guidance, and FNS requirements for allowable program costs.




6
  OMB Circular A-87 requires two types of cost allocation plans. The Central Services or Statewide cost allocation
plan is used to allocate costs of central services (e.g., computer centers, accounting) to the user organizations that
operate Federal programs. The Public Assistance Cost Allocation Plan is used by State service agencies to allocate
costs to Federal programs, such as SNAP, Temporary Assistance to Needy Families, or Medicaid. All
administrative costs (direct and indirect) are normally charged to Federal awards by implementing the Public
Assistance Cost Allocation Plan.
7
  Single Audit Act of 1984, Public Law 98-502, and the Single Audit Act Amendments of 1996, Public Law 104-
156.
8
  States and local governments are required by the Single Audit Act Amendments of 1996 and OMB Circular A-133
“Audits of States, Local Governments, and Non-Profit Organizations,” June 26, 2007, to have one annual audit of
their Federal awards (known as a single audit), including the Recovery Act programs. Recovery Act funds must be
separately identified on single audit financial reports, including Schedules of Expenditures of Federal Awards and
Data Collection Forms, by the Catalog of Federal Domestic Assistance award number.
9
  FMRs are FNS reviews of State administrative expenses.

2     AUDIT REPORT 27703-0001-22
Section 1:  Internal Controls Over SNAP Administrative Funds 
Finding 1: FNS Did Not Provide Effective Tools and Oversight to Ensure
States Met Recovery Act Requirements
FNS did not adequately oversee States' implementation of Recovery Act requirements for
separate accounting of administrative expenditures. This occurred because FNS did not provide
States adequate guidance, conduct sufficient coordination, or perform effective monitoring to
ensure that States met the Recovery Act accounting requirements. An FNS official said that
different accounting systems in the 53 States and territories administering SNAP were obstacles
to providing uniform accounting guidance. While different accounting systems may have
provided a challenge for FNS in providing specific accounting guidance to each State, it did not
remove the agency’s responsibility to ensure compliance with the transparency and accounting
requirements of the Recovery Act. As a result of inadequate guidance, coordination, and
monitoring, four of six States we reviewed did not fully comply with Recovery Act provisions
for transparency and accountability. In addition, FNS’ regional Financial Management Review
(FMR) process did not adequately identify issues with transaction accounting, and three State
FMRs did not provide reasonable assurance that States' Recovery Act funds were used in
accordance with OMB and FNS requirements.

Recipients of Recovery Act funds were required to maintain records that adequately identified
the source and use of the funds, including those for SNAP.10 In recognition of the Recovery
Act’s focus on unprecedented transparency, FNS issued an addendum to its FMR Guide, which
stipulated that States receiving Recovery Act funds must separately identify Recovery Act funds
at every stage of the grant cycle.11,12 FNS also created new steps in its FMR process for
reviewers to obtain evidence that Recovery Act funds were kept separate from regular SNAP
funds. One of the FMR procedures required reviewers to inspect records of actual transactions
involving Recovery Act funds to ensure the funds and expenditures were accounted for
separately throughout the grant cycle.

        Separate Accounting of Recovery Act SNAP Administrative Expenditures

        In the April 2009 guidance, issued 2 months after the Recovery Act was signed into law,
        OMB advised that grant recipients using Recovery Act funds to supplement existing
        grants would risk being unable to track and report the Recovery Act funds separately.13
        In response to OMB and the Recovery Act guidance, FNS issued a series of question and


10
   OMB issued several memoranda on separately accounting for Recovery Act funds (M-09-10 and M-09-15).
11
   FMRs are a key management control over State agencies administering FNS programs. FNS regional offices
conduct FMRs in order to obtain reasonable assurance that the financial information reported by grantees is correct
and complete, and that it represents proper expenditures of Federal funds.
12
   FNS, FMR Guide, Addendum for Reviewing Funds Made Available Under the American Recovery and
Reinvestment Act of 2009, October 2009. The grant cycle, as defined in the FMR addendum, includes the receipt,
custody, obligation, expenditure, and reporting of the funds.
13
   OMB M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
April 3, 2009, Section 4 – Budget Execution, page 38, and Section 5 - Grants and Cooperative Agreements, page 47.

                                                                         AUDIT REPORT 27703-0001-22              3
        answer memoranda to regions and States to instruct them on how to handle the SNAP
        Recovery Act funds. The memoranda required States to account for the Recovery Act
        funds separately by reporting their Recovery Act administrative expenses on a separate
        Financial Status Report (SF-269). Also, FNS issued guidance to the States on how to
        separately report Recovery Act SNAP benefits and administrative funds, in connection
        with OMB Circular A-133 single audit requirements.

        While FNS provided guidance to the States regarding Recovery Act reporting
        requirements, FNS did not provide States with adequate accounting guidance and
        coordination to help them track Recovery Act funds within their existing systems—which
        were not set up to handle such a detailed level of tracking. FNS personnel stated that,
        while they expected States to account for their Recovery Act expenditures down to the
        county level, they acknowledged that the agency did not provide States with adequate
        guidance and coordination to assist them in complying with Recovery Act transactional
        level accounting requirements. An FNS official stated that, because each State and
        territory has a different kind of accounting system, it would be difficult to issue one
        uniform accounting methodology for the Recovery Act. While differing State accounting
        systems may have provided a challenge for FNS in providing specific accounting
        guidance to each State, it did not relieve it of the responsibility of ensuring States
        complied with all transparency requirements, including separately accounting for
        Recovery Act expenditures at the transaction level.

        Due to lack of effective guidance from FNS, four of six States we reviewed did not
        separately account for Recovery Act payroll expenses.14 The separate accounting issue
        particularly impacted States receiving Recovery Act funds as supplements to regularly-
        appropriated SNAP administrative funds. States routinely pooled administrative funds
        from several agencies in order to fund staff for programs such as SNAP, Temporary
        Assistance to Needy Families, and Medicaid. Thus, their payroll accounting systems
        were not configured to charge individual payroll expenditures to each program, but to
        allocate general payroll costs among many programs using methodologies approved by
        HHS in the States’ cost allocation plans. 15

        To comply with Recovery Act requirements, States contended they would have had to
        temporarily amend their accounting systems to separately track Recovery Act payroll
        charges. The four States in question concluded it was too cumbersome to do so, and
        performed their payroll cost allocation processes as usual. States then used Recovery Act
        funds to pay a portion of the total payroll expense allocated to SNAP—without any
        capability to trace the use of the funding back to individual payroll transactions.
        Therefore, OIG was unable to determine the accuracy and appropriateness of payroll
        expenses charged to SNAP Recovery Act funds.


14
   Four States did not separately account for Recovery Act expenditures: California, Nevada, New York, and Utah.
South Dakota did not charge payroll expenditures to the Recovery Act, but, instead, charged individual invoices for
expenses such as rent and printing that OIG could trace back to supporting invoices. Colorado tracked its Recovery
Act payroll expenditures correctly at the county level.
15
   OMB Circular A-87, Attachment D, Public Assistance Cost Allocation Plans.

4     AUDIT REPORT 27703-0001-22
        Monitoring Recovery Act Oversight Costs

        Stemming from the lack of FNS guidance on separate accounting, we identified
        weaknesses in FMRs used to monitor Recovery Act funds. FNS issued an addendum to
        the FMR Guide, requiring new objectives and procedures for the Recovery Act. For
        SNAP, review teams were to inspect records of actual transactions to determine whether
        Recovery Act funds were accounted for separately and used for allowable purposes.
        While FNS did meet its objective of reviewing 50 percent of grantees by September 30,
        2010, we found that FMRs in three States were not sufficient. Specifically, the western
        regional office's FY 2010 FMR for the California Department of Social Services (DSS)
        and FY 2009 FMR for the Nevada HHS did not disclose that reviewers were unable to
        test Recovery Act-specific16 transactions in the amount of $10.9 million and $484,483,
        respectively. This also occurred in the northeast regional office’s FY 2009 FMR for the
        New York Office of Temporary and Disability Assistance in the amount of $12.1 million
        in transactions.

        Reviewers were not able to perform tests of individual Recovery Act transactions since
        the States did not separately account for those transactions. As such, these FMRs did not
        meet their objective of ensuring grantees met the Recovery Act requirements. Since the
        Recovery Act administrative funding period has expired and we recognize that specific
        identification of Recovery Act transactions at this time would be resource intensive,
        assuming it is even possible, we are making no recommendations for further review of
        Recovery Act funds.




16
  The California DSS did not allocate SNAP Recovery Act administrative funds down to the county level. Counties
submitted their expense claims as normal and the State made the necessary accounting adjustments against the
SNAP Recovery Act revenue code to draw down Recovery Act administrative funds.

                                                                      AUDIT REPORT 27703-0001-22             5
Finding 2: Expenses Were Not Claimed in the Appropriate Fiscal Year
We found that two State agencies improperly used funds from one fiscal year to pay for expenses
incurred in a different fiscal year, which Federal appropriations law does not allow. This
occurred because both States did not have adequate accounting/fiscal budgetary yearend cutoff
controls to ensure that expenses were charged to the correct fiscal year funding. In one State the
use of a cash basis form of accounting that focused on when payments were issued, rather than
when charges occurred, increased the risk for misapplication. In the other State, deficiencies in a
yearend cutoff review resulted in the mischarge of transactions against the Recovery Act grant.
As a result, Nevada and South Dakota State agencies improperly used FY 2010 SNAP Recovery
Act administrative funds, totaling $217,787, to pay for FY 2009 expenses.

Federal appropriations law states that an appropriation limited to a definite period (e.g., 1 year) is
available only for payment of expenses properly incurred during that time period.17 Recovery
Act funds were made available for obligation until September 30 of the respective fiscal year.
Also, the Department’s regulations stipulate that when a grant has a specified funding period, a
grantee may charge only costs from that period.18

FNS awarded the Nevada Division of Welfare and Supportive Services (DWSS) over
$1.7 million in Recovery Act funds during FYs 2009 and 2010.19 DWSS used the majority of its
funding for Electronic Benefits Transfer (EBT) charges.20 We found that DWSS used
$201,167 of FY 2010 Recovery Act funding to pay for EBT expenses that were incurred in
FY 2009.

When reviewing its EBT invoices, we found an October 2009 invoice for September 2009 costs
that was paid with FY 2010 Recovery Act funds. Since the expense was incurred in FY 2009, it
should have been paid with FY 2009 funds. A DWSS official agreed with this finding and stated
that DWSS accounting staff missed the error when manually reviewing invoices to verify the
proper period to book the expense during yearend processing. In addition, we identified this
same issue, reported in DWSS FNS 2012 FMR of Non-Recovery Act SNAP funds, where 17 of
135 sampled FY 2009 expenditures, totaling $74,683, were improperly paid as FY 2010 SNAP
expenditures. While these issues occurred due to weakness in DWSS accounting cutoff
procedures, we believe the risk of such mischarge is even greater, due to DWSS’ cash basis
accounting system, which recognizes expenditures when payment is issued, rather than when the
expenditure was incurred or when it was obligated.21




17
   31 U.S. Code §1502(a).
18
   7 Code of Federal Regulations (CFR) 3016.23(a), Period of Availability of Funds.
19
   Nevada DWSS was awarded $869,322 for FY 2009 and $878,346 for FY 2010.
20
   EBT is an electronic system that allows a recipient to authorize transfer of his/her government benefits from a
Federal account to a retailer account to pay for products received.
21
   FNS requires grantees to report costs in the grant period in which they are incurred, thus requiring States to report
on an accrual and not cash basis. If the grantee accounting records are not normally kept on an accrual basis, the
grantee shall develop accrual information through an analysis of the documentation on hand.

6      AUDIT REPORT 27703-0001-22
FNS awarded the South Dakota DSS $524,135 in Recovery Act funds22 and DSS chose to
reallocate certain expenditures to the Recovery Act. The DSS did so by using a method that
bundled many transactions together in order to charge them to the Recovery Act, referring to the
bundles as journal vouchers. While this action was valid, we found that in two cases, a long gap
occurred between the date of the transaction and the date of the journal voucher, resulting in
expenditures being charged in the incorrect fiscal year.23 These two FY 2009 transactions,
totaling $16,620, were misapplied to the FY 2010 Recovery Act grant. A DSS manager agreed
with this finding, stating that DSS should have been more careful when selecting and reviewing
transactions to reallocate to the Recovery Act grants.

FNS’ 2012 FMR recommended Nevada DWSS develop and implement a process to ensure that
SNAP expenditures are reported in the proper fiscal year and paid for by the appropriate Federal
appropriation. Since Nevada DWSS agreed with FNS’ recommendation and indicated that they
would develop additional procedures for the program, we make no further recommendations. In
addition, since deficiencies found in South Dakota DSS activities were specific to the Recovery
Act funding and that Recovery Act administrative funding period has now expired, we make no
further recommendation regarding yearend cutoff control improvements for South Dakota DSS.

Because FY 2009 expenditures mischarged to FY 2010 were unallowable under Federal law, we
recommend that FNS recover the total of $217,787 in Recovery Act funds mischarged to
FY 2010.

Recommendation 1
Recover $201,167 from the Nevada Division of Welfare and Supportive Services in FY 2009
expenditures that were claimed for FY 2010.

Agency Response
In its May 10, 2013, response, FNS stated that it concurs with the recommendation and that its
Western Regional Office staff will follow up with the Nevada Division of Welfare and
Supportive Services to give them the opportunity to provide documentation concerning the
fmding. If it is determined that the cited funds were claimed improperly, the Regional office will
be directed to bill the State tor the appropriate amount.

OIG Position
We agree with FNS’ proposed corrective action for this recommendation. However, to achieve
management decision, FNS needs to provide us with documentation that a claim has been
established for the agreed-upon amount.

22
  South Dakota DSS was awarded $260,714 for FY 2009 and $263,421 for FY 2010.
23
  The audit team found two transactions in our sample that were FY 2009 expenditures paid with FY 2010
Recovery Act funds. The first transaction was for postage charges of $16,601 that reallocated an August 2009
expenditure to the FY 2010 Recovery Act grant. The second transaction was for procurement charges of $19 that
reallocated a June 2009 expenditure to the FY 2010 Recovery Act grant.

                                                                       AUDIT REPORT 27703-0001-22               7
Recommendation 2
Recover $16,620 from the South Dakota DSS in FY 2009 expenditures that were claimed for
FY 2010.

Agency Response
In its May 10, 2013, response, FNS stated that it concurs with the recommendation and its
Mountain Plains Regional Office staff will follow up with the South Dakota DSS to give them
the opportunity to provide documentation concerning the finding. If it is determined that the
cited funds were claimed improperly, the Regional office will be directed to bill the State for the
appropriate amount.

OIG Position
We agree with FNS’ proposed corrective action for this recommendation. However to achieve
management decision, FNS needs to provide us with documentation that a claim has been
established for the agreed-upon amount.




8    AUDIT REPORT 27703-0001-22
Finding 3: Colorado Improperly Spent Recovery Act Funds
The Colorado DHS spent Recovery Act administrative funds that were not obligated by the end
of FYs 2009 and 2010. In addition, a county in Colorado inaccurately used Recovery Act grant
funds to pay employee salaries and benefits not associated with overtime worked on SNAP
cases. This occurred because DHS did not obligate all of its funding during the appropriate time
period, and then chose to use the expired funding, rather than return it to FNS as required by
regulations. As for the county, it apportioned its payroll costs, instead of charging actual
overtime costs to the Recovery Act. The system for apportioning resulted in overstated salaries
and charges to the Recovery Act that were not attributable to overtime work. As a result, DHS
and the county improperly charged $244,633 and $7,852 in Recovery Act funds, respectively.

For appropriated funds, Congress specifies the period of time each appropriation can be used.
The period of availability for the Recovery Act funding ended on September 30 for FYs 2009
and 2010. Any funds not obligated within their period of availability are considered expired. In
addition, FNS Recovery Act guidance states that all Recovery Act funds were to be obligated by
September 30, and any unobligated funds returned to FNS.24 As for employee compensation,
charges must be for time and effort specifically devoted to work on the grant award.25 In
addition, State agency financial management systems that capture personnel costs must be
accurate.26 When planning on how to implement the Recovery Act, Colorado State officials
encouraged the use of Recovery Act funds to pay for overtime charges performed by current
employees, as long as the overtime was solely for SNAP work and tracked separately from
regular time that was subject to cost allocation.

        Colorado DHS Spent Unobligated Recovery Act Funds

        In September 2009 and 2010, DHS used its regular SNAP appropriations to pay for EBT
        expenses. Then, in December 2009 and 2010, DHS used Recovery Act funds to
        reimburse the regular SNAP appropriation for these EBT expenses. However, since these
        Recovery Act funds were not obligated by September 30 of their respective fiscal year,
        they are considered expired and should have been returned to FNS. The total amount of
        expired Recovery Act funds used to reimburse the regular SNAP administrative funds
        account was $244,633 ($140,936 for FY 2009 and $103,697 for FY 2010).

        DHS had allocated a portion of the Recovery Act administrative funds to 11 Colorado
        counties, and chose not to obligate all its Recovery Act funding prior to the end of the
        fiscal year because it wanted to give counties first priority to use the funding. 27 However,
        some of the counties did not spend all of their allocation by the end of FYs 2009 and
        2010, and, as a result, Colorado had an unobligated balance at the end of each fiscal year.
        Instead of returning the unobligated Recovery Act funds, DHS used the funds to

24
   American Recovery and Reinvestment Act, Clarification to Administrative Funding Questions and Answers #2,
May 7, 2009.
25
   7 CFR part 277, appendix A (E)(2)(a).
26
   7 CFR part 3016.20(b)(1).
27
   Since Colorado is a county-administered State, the counties are responsible for carrying out a majority of SNAP
operations.

                                                                         AUDIT REPORT 27703-0001-22                  9
        reimburse the regular SNAP funds account for previously paid EBT expenditures. A
        DHS official stated that the State agency did the right thing in spending the remaining
        Recovery Act funding, rather than losing it. In addition, a DHS financial official agreed
        that it was better to use the funding, even though it would have been technically correct
        to return it to FNS.

        In her response, a FNS Mountain Plains Region official stated that, as long as the EBT
        costs were incurred during the period of availability, they did not have a problem with
        Colorado using unobligated funds in December. While we acknowledge that the cost was
        incurred during September, the response does not follow FNS' own guidance, which
        states that funds not obligated by September 30 expire after that date. Therefore, we
        recommend that FNS recover the $244,633 of Recovery Act funding.

        Pueblo County Charged Inappropriate Costs to the Recovery Act Grant

        The Pueblo County DSS used Recovery Act grant funds to pay for overtime work
        performed by full-time employees devoted solely to SNAP cases. However, rather than
        charge the actual costs for that overtime to the Recovery Act, the county used a labor
        distribution program to apportion salary and benefits between the regular cost fund and
        the Recovery Act fund. In the distribution programming, the apportioned costs charged
        to the Recovery Act included some employee salary and benefits not associated with the
        overtime. Since Colorado DHS only allowed overtime payroll costs, but no regular time
        payroll costs of full-time staff to be charged to the Recovery Act, the county should have
        charged only the actual costs associated with the overtime and not the apportioned costs
        developed by its labor distribution program.

        We also found that the accounting system incorrectly rounded up the percentages used to
        calculate the amounts charged to the Recovery Act to the next whole percent, resulting in
        salary overcharges. Colorado DHS agreed that Recovery Act grants should not have
        been charged for benefits not associated with overtime work, as well as inflated salaries
        stemming from the rounding methodology. As a result of these errors, the Recovery Act
        was overcharged by $7,852.28 Since these charges are not attributable to SNAP work, we
        recommend recovery of these funds.

Recommendation 3
Recover from DHS $244,633 of Recovery Act funding that was improperly spent in the wrong
fiscal year.




34
  The county charged $7,299 of ineligible benefits for all 130 payroll records for Recovery Act overtime work. In
addition, we reviewed 39 of the 130 payroll records and determined that $553 charged to salaries and expenses was
ineligible.

10      AUDIT REPORT 27703-0001-22
Agency Response
In its May 10, 2013, response, FNS stated that it concurs with the recommendation and its
Mountain Plains Regional Office staff will follow up with the Colorado DHS to give them the
opportunity to provide documentation concerning the finding. If it is determined that the cited
funds were claimed improperly, the Regional office will be directed to bill the State for the
appropriate amount.

OIG Position
We agree with FNS’ proposed corrective action for this recommendation. However, to achieve
management decision, FNS needs to provide us with documentation that a claim has been
established for the agreed-upon amount.

Recommendation 4

Recover the $7,852 of improper charges to Recovery Act grants at the county level.

Agency Response
In its May 10, 2013, response, FNS stated that it concurs with the recommendation. In
discussions with its Mountain Plains Regional Office staff, it has been determined that the
amount cited was indeed improperly charged to the Recovery Act account. The Regional office
will bill the State agency for $7,852.

OIG Position
We agree with FNS’ proposed corrective action for this recommendation. However, to achieve
management decision, FNS needs to provide us with documentation that a claim has been
established for the agreed-upon amount.




                                                            AUDIT REPORT 27703-0001-22        11
Scope and Methodology
We conducted our fieldwork from November 2011 through November 2012. Our audit focused
on determining if FNS had sufficient management controls to ensure SNAP administrative funds
provided by the Recovery Act were used in accordance with the Recovery Act’s provisions,
OMB guidance, and FNS requirements for allowable program costs. We randomly selected
States for review that received a portion of the $290.5 million of administrative funds provided
to the States by the Recovery Act. To meet this goal, OIG's statistician developed a random
statistical sample, including the States of California, Colorado, Nevada, New York,
South Dakota, and Utah. These States received $52.2 million of the $290.5 million in Recovery
Act funds. We reviewed FNS’ oversight at its national headquarters in Alexandria, Virginia; the
FNS Western Regional Office in San Francisco, California; the FNS Mountain Plains Regional
Office in Denver, Colorado; the FNS Northeast Regional Office in Boston, Massachusetts; and
the State agencies responsible for administering SNAP in the six States in our sample.

Three of the six State agencies selected (California, Colorado, and New York) have county-
administered SNAP programs. However, only Colorado separately accounted for SNAP
Recovery Act expenditures at the county level. Therefore, we did not review counties in
New York and California. For the Colorado State agency, OIG's statistician selected a random
statistical sample of 6 out of the 11 counties that received Recovery Act funds. Because of the
scope limitation for certification expenditures reported (the majority of which were for payroll),
and because no over-arching issues were found that can be applied to the entire universe, we
chose not to include statistical projections in our report.

We were unable to review payroll transactions for the Recovery Act administrative costs in the
States of Nevada and Utah, and the States and counties of California and New York, because
these States and counties did not separately account for these expenditures.29 For the State of
Colorado, we reviewed all of the State-level Recovery Act administrative costs reported on the
State’s Recovery Act SF-269 reports for FYs 2009 and 2010, the 2 years the funds were
available for obligation. For the six Colorado counties in our sample, we selected and reviewed
a statistical sample of their Recovery Act administrative expenditures. We looked at how the
Recovery Act funds were administered throughout the entire process, including the allocation,
receipt, custody, obligation, expenditure, and reporting of the funds.

To accomplish our objectives we:

     ·   Reviewed regulations, policies, and procedures governing SNAP administrative costs,
         including OMB Circular A-87 and 7 CFR 277 appendix A.
     ·   Interviewed FNS Headquarters and regional office and State agency officials to determine
         what management controls were used to monitor Recovery Act SNAP administrative
         costs.
     ·   Reviewed the results of State and local audits performed under the Single Audit Act to
         identify issues concerning the allocation of State and local administrative costs.

29
  The audit team was able to review automated data processing expenditures for the State of California and
electronic benefit transfer expenditures for the State of Nevada.

12       AUDIT REPORT 27703-0001-22
     ·   Reviewed the Recovery Act modules of FNS’ FMRs (sections related to SNAP
         administrative funds) performed at State agencies to identify problems and assess corrective
         actions taken by the States to address the problems.
     ·   Reviewed automated data processing transactions in California and EBT transactions in
         Nevada to ensure appropriateness and accuracy of Recovery Act fund expenditures.30 In
         South Dakota, we reviewed rental and postage transactions included as indirect expenses
         under the certification category on the State’s SF-269 Financial Status Report. We reviewed
         the EBT and consulting expenses in the State of Colorado and payroll costs in the Colorado
         counties of Denver, El Paso, Jefferson, Larimer, Mesa, and Pueblo.

Generally Accepted Government Auditing Standards (GAGAS) require that we plan and perform
our audits to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. However, four of six States we reviewed
(California, Nevada, Utah, and New York) could not provide detailed accounting records to
support their uses of SNAP Recovery Act administrative funding for payroll expenditures.
Because we were unable to gather appropriate evidence in these four States in accordance with
GAGAS, we were unable to draw a conclusion as to the propriety of the States’ uses of Recovery
Act SNAP funds for these expenditures. We were able to perform our audit in Colorado and
South Dakota in accordance with GAGAS since we were able to audit detailed accounting
records supporting the State’s use of SNAP Recovery Act funds.




30
  The audit team was not able to review payroll related costs for the States of California and Nevada due to a scope
limitation.

                                                                        AUDIT REPORT 27703-0001-22               13
Abbreviations
CFR                Code of Federal Regulations
DHS                Colorado Department of Human Services
DSS                Department of Social Services
DWSS               Division of Welfare and Supportive Services
EBT                Electronic Benefit Transfer
FMR                Financial Management Review
FNS                Food and Nutrition Service
FY                 Fiscal Year
GAGAS              Generally Accepted Government Auditing Standards
HHS                Department of Health and Human Services
OIG                Office of Inspector General
OMB                Office of Management and Budget
Recovery Act       American Recovery and Reinvestment Act of 2009
SNAP               Supplemental Nutrition and Assistance Program




14    AUDIT REPORT 27703-0001-22
Exhibit A: Summary of Monetary Results
This exhibit lists findings and recommendations that had a monetary result, and includes the type
of monetary result and amount.

 Monetary Results      Finding      Recommendation         Award Type            Amount
  Questioned Cost,
     Recovery              2                 1                 Grant                   $201,167
   Recommended
  Questioned Cost,
     Recovery              2                 2                 Grant                    $16,620
   Recommended
  Questioned Cost,
     Recovery              3                 3                 Grant                   $244,633
   Recommended
  Questioned Cost,
     Recovery              3                 4                 Grant                     $7,852
   Recommended




                                                            AUDIT REPORT 27703-0001-22        15
Exhibit B: Sampling Methodology
Objective

This sample is designed to support OIG audit 27703-0001-22. The objective is to develop a
random statistical sample to review, analyze sample data collected by the audit team, and provide
estimates for a variety of criteria being audited.

Audit Universe

Our universe consisted of SNAP transactions in 48 States and the District of Colombia (we
excluded Alaska, Hawaii, and two U.S. territories from review, due to travel and resource
considerations). The audit team provided the audit universe to OIG statisticians.

Sample Design

Given the diversity in the data factors and audit resource requirements, several design types were
developed that helped us make informed decisions about which design would be appropriate.
We considered simple random samples, stratified, and two-stage designs. For this audit, we used
a multistage sample design.

Stage 1 – Our audit universe of SNAP transactions comprised 50 U.S. States, the District of
Colombia, and 2 U.S. territories - Guam and the Virgin Islands. Based on travel resources, we
excluded Alaska, Hawaii, Guam, and the Virgin Islands from the audit universe. To obtain
tighter precision for our estimates, we selected a simple random sample of 10 out of the
48 remaining States and the District of Columbia (a total of 49). The selected States were
Colorado, New York, Utah, California, Nevada, South Dakota, Louisiana, Idaho, Missouri, and
Maine. During the initial State review, our audit team discovered that some States administer the
program at the State level, while others administer the program at the county level. Also, some
States were not separating Recovery Act expenditures from regular program expenditures. This
scope limitation, combined with travel and resource considerations, led us to the decision to stop
the sample review after the first six selected States - Colorado, New York, Utah, California,
Nevada, and South Dakota - were completed. This reduction of sample size at Stage 1 would
still allow us to project our findings. However, the precision of our estimates would potentially
be wider.

Stage 2 – Whenever possible, within each State selected at Stage 1, we picked a simple random
sample of counties for review. Specific county selections are listed in Table 1 below.

Stage 3 – Within each county selected at Stage 2, we selected a simple random sample of SNAP
administrative expenditure transactions for review. Table 1 below provides details regarding
Stage 3 sampled units




16     AUDIT REPORT 27703-0001-22
Table 1: Sample Design Structure

    Stage 1                  Stage 2                          Stage 3
                                                                                       Additional Information for Units Selected at
 Sample Unit =                                                                                          Stage 3
                   (Sample Unit = county)           (Sample Unit = transaction)
    State)
                                                       Stratum 1: 20 out of 53                         personnel costs
                                       Larimer
                                                      Stratum 2: 25 out of 177                      all other transactions

                                                         Stratum 1: census                        special interest selection

                                                                                        Salaries paid >=$2,000. Total amount paid in
                                                        Stratum 2: 6 out of 8
                                        Pueblo                                                   this stratum was $69,095.22

                  Eleven out of 64                                                     Salaries paid <$2,000. Total amount paid in this
                                                       Stratum 3: 20 out of 63
                     counties in                                                                   stratum was $36,723.66
                 Colorado received
 COLORADO          Recovery Act                        Stratum 1: 15 out of 93           transactions (wages) over or equal to 1,000
                                       El Paso
                     funds. We                        Stratum 2: 15 out of 403                transactions (wages) below 1,000
                   selected 6 for
                       review.                     Simple Random Sample of 20 out
                                       Jefferson                                                         transactions
                                                               of 80
                                                       Stratum 1: 20 out of 81               permanent employees' transactions
                                        Mesa
                                                       Stratum 2: 8 out of 20                temporary employees’ transactions

                                                      Stratum 1: 20 out of 217                      Part-time employees
                                       Denver
                                                       Stratum 2: census of 5                 full time employees' transactions
                                                                                        New York merged Recovery Act funding for
                                                                                       administration into the regular admin account;
  NEW YORK             N/A               N/A                    N/A
                                                                                        there was no separation of the Recovery Act
                                                                                                           dollars.

    UTAH              Census             N/A                 2 out of 2                                  transactions

                                                                                       California provided Automated Data Processing
                                                   Census of 44 for the Automated
                                                                                       expenditures but only for about $1 million over
                                                    Data Processing expenditures
 CALIFORNIA            N/A               N/A                                           a 2-year period. The remaining dollar amounts
                                                   only. Separation of funds issue
                                                                                        were separated as ARRA funding vs. regular
                                                        for remaining funds.
                                                                                                 non-Recovery Act accounts.

   NEVADA             Census             N/A                 9 out of 9                                  transactions

                                                       Stratum 1: census of 5                     certification transactions
                 All transactions                      Stratum 2: census of 2                    EBT expenses transactions
    SOUTH
                 were at the State       N/A
   DAKOTA                                              Stratum 3: census of 1                other transactions - special interest
                       level
                                                       Stratum 4: 20 out of 55               other transactions - random sample


In summary, we selected six States, several counties, and numerous transactions for review. We
had no historical information on which to base a sample size calculation. In particular, we did
not know where to expect variance to occur. Therefore, in order to calculate a sample size, we
had to make an assumption about what level of expected error rate we would find. Our desired
precision level was +/- 10 percent, with a 95-percent level of confidence.

Results: The audit team completed their field work and gathered data for analysis. They
determined that the issues found were isolated to specific States and regions. No over-arching
issues that could be applied to the entire universe at Stage 2 or 3 of selection were found. Some
of the findings related only to States at the State level (selection Stage 1). However, our sample
was not designed to make a projection from stage 1 data only. We did not select enough States

                                                                                     AUDIT REPORT 27703-0001-22                        17
at that first stage to obtain the precision we need for reporting. Based on the above, we did not
use any statistical projections in our report. Our report findings are therefore based on actual
issues found, as opposed to estimated values and projections




18     AUDIT REPORT 27703-0001-22
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27703-0001-22   19
United States
Department of    DATE:          May 10, 2013
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27703-0001-22
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712                        Office of the Inspector General
Alexandria, VA
22302-1500       FROM:          /s/ <Jeffrey J. Tribiano> (for): Audrey Rowe
                                Administrator

                 SUBJECT:      Recovery Act Impacts on Supplemental Nutrition Assistance Program
                               Phase II

                 This letter responds to the official draft report for audit report number 27703-0001-22,
                 Recovery Act Impacts on Supplemental Nutrition Assistance Program Phase II.
                 Specifically, the Food and Nutrition Service (FNS) is responding to the two
                 recommendations in the report.


                 Recommendation 1

                 Recover $201,167 from the Nevada Division of Welfare and Supportive Services in FY
                 2009 expenditures that were claimed for FY 2010.

                 Agency Response

                 FNS concurs with the recommendation. Our Western Regional Office staff will follow
                 up with the Nevada Division of Welfare and Supportive Services to give them the
                 opportunity to provide documentation concerning the finding. If it is determined that
                 the cited funds were claimed improperly, the Regional office will be directed to bill the
                 State for the appropriate amount.

                 Recommendation 2

                 Recover $16,620 from the South Dakota DSS in FY 2009 expenditures that were
                 claimed for FY 2010.

                 Agency Response

                 FNS concurs with the recommendation. Our Mountain Plains Regional Office staff
                 will follow up with the South Dakota DSS to give them the opportunity to provide
                                                                                P age |2




Gil Harden
Page 2

documentation concerning the finding. If it is determined that the cited funds were
claimed improperly, the Regional office will be directed to bill the State for the
appropriate amount.

Recommendation 3

Recover from DHS $244,633 of Recovery Act funding that was improperly spent in the
wrong fiscal year.

Agency Response

FNS concurs with the recommendation. Our Mountain Plains Regional Office staff will
follow up with the Colorado DHS to give them the opportunity to provide documentation
concerning the finding. If it is determined that the cited funds were claimed improperly,
the Regional office will be directed to bill the State for the appropriate amount.

Recommendation 4

Recover the $7,852 of improper charges to Recovery Act grants at the county level.

Agency Response

FNS concurs with the recommendation. In discussions with our Mountain Plains
Regional Office staff, it has been determined that the amount cited was indeed
improperly charged to the Recovery Act account. The Regional office will bill the State
agency for $7,852.




                             AN EQUAL OPPORTUNITY EMPLOYER
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
